No.

In the

Supreme Court of the United States

ROBERT LOUIS BRANDON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF SERVICE
NELSON S. EBAUGH, a member of the Bar of this Court and appointed under
the Criminal Justice Act, certifies that, pursuant to Rule 29.5, he served the
preceding Petition for Writ of Certiorari and the accompanying Motion for Leave to
Proceed In Forma Pauperis on counsel for the Respondent (1) by mailing, on
September 25, 2020, a copy of these documents (via first-class United States mail,
postage prepaid) to:
The Honorable Noel J. Francisco
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
1

and also (2) by sending, on September 25, 2020, the said documents via electronic
mail to the Office of the Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. He certifies that all parties required to be served
have been served.
Nelson S. Ebaugh

2

